No. 19-1127

 

IN THE

Supreme Court of the United States

WHEELER K. NEFF,

Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

PETITION FOR REHEARING

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,396 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 15, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
